No. 19-251
In the

Supreme Court of the United States
__________________

AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
__________________
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

__________________

BRIEF OF THE PUBLIC INTEGRITY
ALLIANCE AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
__________________
KORY A. LANGHOFER
Counsel of Record
THOMAS J. BASILE
STATECRAFT PLLC
649 North Fourth Avenue
First Floor
Phoenix, Arizona 85003
(602) 382-4078
kory@statecraftlaw.com
tom@statecraftlaw.com
Counsel for Amicus Curiae
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
RULE 29.6 STATEMENT
Public Integrity Alliance, Inc. is a non-profit
corporation organized under the laws of Arizona. It has
no parent corporation and no publicly held company
owns 10% or more of its stock.

ii
TABLE OF CONTENTS
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iv
INTERESTS OF AMICUS CURIAE . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
I. THE NINTH CIRCUIT’S ERRONEOUS
FORMULATION OF “EXACTING SCRUTINY”
IS INSUFFICIENTLY PROTECTIVE OF FIRST
AMENDMENT RIGHTS AND UNDULY
DEFERENTIAL TO THE GOVERNMENT. . . . . 4
A. The Ninth Circuit’s Flawed Approach Will
Cause a Chilling of Constitutionally
Protected Expressive and Associational
Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
B. Upon a Showing of an Arguable First
Amendment Infringement, the Government
Must Establish that Coerced Disclosure Is
the Least Restrictive Means of Advancing a
Compelling Interest. . . . . . . . . . . . . . . . . . . . 11
II. A GENERAL “INFORMATIONAL INTEREST”
IS INSUFFICIENT TO SUSTAIN THE
COMPELLED DISCLOSURE OF PRIVATE
ASSOCIATIONAL INFORMATION . . . . . . . . . 15
A. This Court Has Never Recognized a
Generalized “Informational Interest” That
Can Justify Compelled Disclosure of
Sensitive Associational Information. . . . . . . 16

iii
B. The Generalized “Informational Interest”
Propounded by the Lower Courts Lacks
Factual Support and Persuasive Force . . . . 19
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

iv
TABLE OF AUTHORITIES
CASES
Adolph Coors Co. v. Wallace,
570 F. Supp. 202 (N.D. Cal. 1983) . . . . . . . . . . . 13
Am. Fed’n of Labor & Cong. of Indus.
Organizations v. Fed. Election Comm’n,
333 F.3d 168 (D.C. Cir. 2003) . . . . . . . . . . . . . . . . 5
Americans for Prosperity Foundation v. Becerra,
903 F.3d 1000 (9th Cir. 2018). . . . . . . . 5, 6, 10, 15
Bates v. City of Little Rock,
361 U.S. 516 (1960). . . . . . . . . . . . . . . . . . . . . . . . 5
Buckley v. Valeo,
424 U.S. 1 (1976). . . . . . . . . . . . . . 5, 16, 17, 18, 22
California Pro-Life Council, Inc. v. Getman,
328 F.3d 1088 (9th Cir. 2003). . . . . . . . . . . . 19, 21
Ctr. for Individual Freedom v. Madigan,
697 F.3d 464 (7th Cir. 2012). . . . . . . . . . . . . . . . 16
Citizens United v. Fed. Election Comm’n,
558 U.S. 310 (2010). . . . . . . . . . . . . . . . . . . . . . . 18
Davis v. Fed. Election Comm’n,
554 U.S. 724 (2008). . . . . . . . . . . . . . . . . . . . . . . 18
Democratic Nat’l Comm. v. Arizona Sec’y of State’s
Office, CV-16-01065-PHX-DLR,
2017 WL 3149914 (D. Ariz. July 25, 2017) . . . . 12
Horne v. Ariz. Public Integrity Alliance, Inc.,
Arizona Superior Court, CV2013-055021 . . . . . . 9

v
McCutcheon v. Fed. Election Comm’n,
572 U.S. 185 (2014). . . . . . . . . . . . . . . . . . . . . . . . 4
McIntyre v. Ohio Elections Comm’n,
514 U.S. 334 (1995). . . . . . . . . . . . . . . . . . . . 15, 22
Montanans for Cmty. Dev. v. Motl,
CV 14-55-H-DLC, 2015 WL 13716091
(D. Mont. Aug. 7, 2015) . . . . . . . . . . . . . . . . . . . 14
NAACP v. Patterson,
357 U.S. 449 (1958). . . . . . . . . . . . 1, 3, 4, 7, 11, 12
Nat’l Org. for Marriage, Inc. v. McKee,
669 F.3d 34 (1st Cir. 2012) . . . . . . . . . . . . . . . . . 16
In re Primus,
436 U.S. 412 (1978). . . . . . . . . . . . . . . . . . . . . . . . 5
The Ohio Org. Collaborative v. Husted,
2:15-CV-01802, 2015 WL 7008530
(S.D. Ohio Nov. 12, 2015) . . . . . . . . . . . . . . . . . . 13
Perry v. Schwarzenegger,
591 F.3d 1147 (9th Cir. 2010). . . . . . . 3, 11, 12, 13
In re Slack,
768 F. Supp. 2d 189 (D.D.C. 2011). . . . . . . . . . . 14
Talley v. California,
362 U.S. 60 (1960). . . . . . . . . . . . . . . . . . . . . . . 4, 5
United States v. Stevens,
559 U.S. 460 (2010). . . . . . . . . . . . . . . . . . . . . . . . 4
Yamada v. Snipes,
786 F.3d 1182 (9th Cir. 2015). . . . . . . . . . . . . . . 16

vi
Zerilli v. Smith,
656 F.2d 705 (D.C. Cir. 1981) . . . . . . . . . . . . . . . 14
CONSTITUTION AND STATUTES
U.S. Const. amend. I . . . . . . . . . . . . . . . . . . . . passim
26 U.S.C. § 501(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
OTHER AUTHORITIES
Dick M. Carpenter II, Mandatory Disclosure for
Ballot-Initiative Campaigns, 13 T HE
INDEPENDENT REVIEW 568 (2009) . . . . . . . . . . . 20
Jeremy Duda, Group Runs TV Ads on Horne
Campaign Finance Woes, ARIZ. CAPITOL TIMES,
Nov. 14, 2013, available at https://azcapitoltimes
.com/news/2013/11/14/arizona-public-integrityalliance-runs-tv-ads-on-horne-campaign-financewoes/ . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Alexandre Couture Gagnon & Filip Palda, The Price
of Transparency: Do Campaign Finance
Disclosure Laws Discourage Political
Participation by Citizens Groups?, 146 PUBLIC
CHOICE 353 (2011) . . . . . . . . . . . . . . . . . . . . . . . 20
Raymond J. La Raja, Political Participation and
Civic Courage: The Negative Effect of
Transparency on Making Small Campaign
Contributions, 36 POLIT. BEHAV. 753 (2014) . . . 20
David M. Primo & Jeffrey Milyo, Campaign Finance
Laws and Political Efficacy: Evidence from the
States, 5 ELECTION LAW JOURNAL 23 (2006) . . . 20

vii
David M. Primo, Information at the Margin:
Campaign Finance Disclosure Laws, Ballot
Issues, and Voter Knowledge, 12 ELECTION LAW
JOURNAL 114 (2013) . . . . . . . . . . . . . . . . . . . . . . 20
Tom Horne, Arizona AG, Files Lawsuit Over Alleged
Defamatory Ads, UNITED PRESS INT’L, Nov. 21,
2013, available at https://www.upi.com/Top_Ne
ws/US/2013/ 11/21/Tom-Horne-Arizona-AG-fileslawsuit-over-alleged-defamatory-ads/17931385
068937/?ur3=1. . . . . . . . . . . . . . . . . . . . . . . . . . . 9

1
INTERESTS OF AMICUS CURIAE1
The Public Integrity Alliance (“PIA”) is a
government ethics watchdog that speaks truth to
power and, in so doing, attracts very dangerous
enemies. The PIA is a nonprofit corporation
headquartered in Arizona that is organized and
operated for the purpose of promoting social welfare,
pursuant to section 501(c)(4) of the Internal Revenue
Code of 1986, as amended. Because its issue advocacy
and pursuit of the public interest frequently entails
exposing corruption, official misconduct and improper
uses of taxpayer money by powerful government
officials, PIA’s fundraising and operational viability
depends directly and acutely on strong safeguards for
donor privacy. Once itself the target of a vindictive
Attorney General seeking political retribution, PIA is
singularly cognizant of the perils to free association
and robust advocacy that the Ninth Circuit’s judgment
portends.
SUMMARY OF THE ARGUMENT
Recognizing “the vital relationship between freedom
to associate and privacy in one’s associations,” this
Court in NAACP v. Patterson, 357 U.S. 449, 462 (1958),
crafted a strong doctrinal bulwark against the
1

Pursuant to Supreme Court Rule 37.6, amicus affirms that no
counsel for a party authored the brief in whole or in part, that no
counsel or party made a monetary contribution intended to fund
the preparation or submission of this brief, and that no person
other than the amicus, its counsel, or its members made such a
monetary contribution. Counsel for all parties received notice at
least 10 days before the due date of amicus’s intention to file this
brief and consented to the filing of the brief.

2
compelled disclosure of the confidential financial and
non-financial relationships that undergird the
activities of public interest organizations. Over the
ensuing six decades, however, this constitutional
barricade to governmental encroachments in
associational activities has been steadily eroded by two
inauspicious trends. First, some lower courts have held
that nonprofits wishing to shield donor information
make implausibly rigorous factual showings of tangible
“burdens” on expressive and associational activities—a
requirement that is both constitutionally unsound and
untethered from practical realities. Second, while
enhancing the evidentiary onus on those exercising
First Amendment rights, these courts have
concomitantly deferred to the dubious assertions of
governmental parties concerning the ostensible
“interests” animating their incursions on associational
freedoms, and the fit between these objectives and the
coerced disclosure of private information. Both defects
of this jurisprudence are on full display in the Ninth
Circuit’s opinion. Having been targeted for
retaliation—including lawsuits and regulatory efforts
to force disclosure of its confidential donors—by a
spiteful Attorney General angered by its public interest
advocacy, PIA is keenly aware of the hazards to
associational freedom that ensue when courts defer
inordinately to the government at the expense of those
exercising their First Amendment rights.
Informed by its own experience and drawing in part
on the framework developed lower courts (including the
Ninth Circuit) in formulating an evidentiary “First
Amendment privilege,” the PIA instead proposes that
any organization subjected to a governmental demand

3
for its private associational information need only
establish a prima facie showing of an “arguable First
Amendment infringement.” The burden then shifts to
the government to prove both a compelling interest in
the information and the absence of a more narrowly
tailored or “less restrictive” means of advancing that
interest. See generally Perry v. Schwarzenegger, 591
F.3d 1147, 1160-61 (9th Cir. 2010). This approach not
only recognizes that the practical effects of coerced
disclosure often are difficult to document and quantify,
but vindicates the paramount importance of First
Amendment freedoms in our constitutional pantheon,
and restores the proper equilibrium established in
NAACP between individual rights and legitimate
regulatory imperatives.
More fundamentally, this case should serve as a
catalyst for a broader reassessment of the nature and
magnitude of the putative governmental “interests”
that can sustain the coerced disclosure of internal
associational information. Historically, this Court has
countenanced burdens on First Amendment rights only
when necessary to prevent or remedy real or perceived
illicit conduct or other articulable injuries to the public
welfare. Increasingly, however, courts have fashioned—
most notably in the campaign finance context—an
amorphous “informational interest” to justify compelled
disclosures. Not only is this notion conceptually and
empirically unsound, it improperly enhances
government power at the expense of the individual
freedoms the First Amendment exists to protect.

4
ARGUMENT
I. THE NINTH CIRCUIT’S ERRONEOUS
FORMULATION OF “EXACTING SCRUTINY”
IS INSUFFICIENTLY PROTECTIVE OF FIRST
AMENDMENT RIGHTS AND UNDULY
DEFERENTIAL TO THE GOVERNMENT
This Court’s First Amendment jurisprudence is
constructed on two foundational pillars. The first is
that “[t]he whole point of the First Amendment is to
afford individuals protection . . . The First Amendment
does not protect the government.” McCutcheon v. Fed.
Election Comm’n, 572 U.S. 185, 206 (2014). In securing
expressive activities from governmental interference,
the First Amendment’s protections hence “do[] not
leave us at the mercy of noblesse oblige” and are not
limited “only to categories of speech that survive an ad
hoc balancing of relative social costs and benefits.”
United States v. Stevens, 559 U.S. 460, 480, 470 (2010).
In other words, a citizen need not justify his expressive
or associational activities to the government (or, for
that matter, to the courts); rather, the government
must prove that regulatory encumbrances on such
activities are no greater than necessary to advance a
compelling public interest.
The second is a recognition that the compelled
disclosure of associational information can be just as
pernicious to First Amendment freedoms as direct
prohibitions on protected speech or conduct. See
NAACP, 357 U.S. at 462 (acknowledging that
“[i]nvioability of privacy in group association may in
many circumstances be indispensable to preservation
of freedom of association”); Talley v. California, 362

5
U.S. 60, 64–65 (1960) (“There can be no doubt that” an
ordinance requiring handbills to bear the names and
addresses of their sponsors “would tend to restrict
freedom to distribute information and thereby freedom
of expression.”); Bates v. City of Little Rock, 361 U.S.
516, 523 (1960) (expressive and associational freedoms
“are protected not only against heavy-handed frontal
attack, but also from being stifled by more subtle
governmental interference.”); Am. Fed’n of Labor &
Cong. of Indus. Organizations v. Fed. Election Comm’n,
333 F.3d 168, 175 (D.C. Cir. 2003) (“The Supreme
Court has long recognized that compelled disclosure of
political affiliations and activities can impose just as
substantial a burden on First Amendment rights as can
direct regulation.”).
The confluence of these two principles has impelled
this Court to affirm that governmentally imposed
burdens on the right of association may be sustained
only by means “closely drawn to avoid unnecessary
abridgement of associational freedoms.” In re Primus,
436 U.S. 412, 432 (1978) (quoting Buckley v. Valeo, 424
U.S. 1, 25 (1976)).
Contrary to these settled precepts, the Ninth Circuit
brushed aside sworn testimony from multiple
witnesses attesting that the Petitioner has lost—and
will continue to lose—financial support as a direct
consequence of California’s regulatory mandate that
the Petitioner disclose to the state’s Attorney General
the identities of its major donors. See Americans for
Prosperity Foundation v. Becerra, 903 F.3d 1000, 1013
(9th Cir. 2018). The fact that “some individuals who
have or would support the plaintiffs may be deterred

6
from contributing” did not, according to the court,
establish the requisite substantial burden on First
Amendment rights. See id. at 1014. Similarly, the court
discounted as insufficient specific evidence of
retaliation and harassment directed at persons who are
(or are perceived to be) affiliated with the Petitioner, to
include death threats and boycotts. See id. 1015-16.
The rigorous evidentiary showing demanded of the
Petitioner, however, contrasts notably with the court’s
solicitude of the government’s stated desire to avoid
supposed inefficiencies and bureaucratic nuisances.
Although California’s compelling interest in policing
abuses and misconduct by charitable organizations
could be easily advanced by deploying subpoenas or
other investigatory tools directed specifically at
charities suspected of engaging in such malfeasance,
the Ninth Circuit credited California’s assertions that
such targeted tactics are “‘not the best use of . . .
limited resources’” and that its preference for
indiscriminate compelled disclosure “‘increases
investigative efficiency.’” Id. at 1010. Further, despite
insisting that the Petitioner should have furnished
even more specific instances of foregone contributions
or reprisals against donors, the court was content to
credit the government’s apparent mere say-so that
compelling donor disclosures only from charities
actually suspected of wrongdoing would risk
“tipping . . . off” those entities. Id.
By dispensing with the requirement that
California’s disclosure mandate be “narrowly tailored”
to achieve its purported objectives, the Ninth Circuit
unilaterally excised an integral component of the

7
exacting scrutiny standard, in contravention of this
Court’s precedents and their application in other
Circuits. In this respect, the Ninth Circuit’s divergence
from settled law is capably outlined in the Petition, and
PIA will not reiterate those doctrinal arguments here.
Instead, the PIA wishes to relate how its own
experiences in high-profile advocacy activities
underscore the insufficiency of the Ninth Circuit’s
approach for preserving core First Amendment rights.
PIA respectfully contends that the correct framework
for analyzing claims of First Amendment infringements
in the compelled disclosure context—as informed by
NAACP and its progeny—is that when a speaker
makes a prima facie showing of an arguable First
Amendment infringement, the burden shifts to the
government to prove that its statutory or regulatory
prescriptions are “narrowly tailored” and the “least
restrictive means” of advancing a compelling state
interest.
A. The Ninth Circuit’s Flawed Approach Will
Cause a Chilling of Constitutionally
Protected Expressive and Associational
Activities
The notion that government officials will faithfully
safeguard private associational information as
stewards of the public good may be a worthy aspiration
—but it is ultimately a chimera that the Framers
wisely rejected. PIA was established in 2012 for the
primary purpose of promoting ethics and integrity in
government. In furtherance of this mission, PIA
regularly uses broadcast and social media, mailers, and
other outlets of communication to alert the public to

8
instances of corruption, official misconduct and
improper uses of taxpayer money. Its activities have
directly led to several criminal and regulatory
investigations and, more importantly, the resignation
or electoral defeat of four state-level officials in two
states. As a nonprofit organization without any
business or revenue-generating activities, PIA depends
entirely on third parties to fund its activities.
In approximately November 2013, PIA widely
disseminated two mailers and a video that was aired on
television and posted to the Internet website YouTube.
The mailers and advertisement were critical of thenArizona Attorney General Tom Horne, and publicly
called upon him to return $400,000 in illegal campaign
contributions. One of the mailers also encouraged
citizens to contact their legislators to urge them to
support ethics reforms in the Attorney General’s office.
PIA’s advocacy—which depended on the financial
sustenance provided by confidential donors—
precipitated a retaliatory onslaught by an enraged
Horne. Shortly after the advertisement began airing,
Horne’s attorney sent a letter to media outlets
demanding that they cease broadcasts of the ad and
threatening to take legal action. In addition, Horne
(through his attorney) also filed a campaign finance
complaint with the Arizona Secretary of State, alleging
that PIA constituted a “political committee” under
Arizona law and thus must comply with the
registration and reporting requirements—including the
disclosure of all contributors—applicable to such

9
organizations.2 Horne also enlisted the resources and
prominence of his office to advance his crusade against
the PIA; an official spokeswoman in the Arizona
Attorney General’s Office publicly assailed PIA as
“cowardly” and “liars.” See Jeremy Duda, Group Runs
TV Ads on Horne Campaign Finance Woes, ARIZ.
CAPITOL TIMES, Nov. 14, 2013, available at
https://azcapitoltimes.com/news/2013/11/14/arizonapublic-integrity-alliance-runs-tv-ads-on-hornecampaign-finance-woes/. Horne complemented these
intimidatory tactics with a defamation lawsuit against
PIA and its individual officers and directors, which he
promptly used as a device to demand discovery into
PIA’s private internal communications and bank
records. See Horne v. Ariz. Public Integrity Alliance,
Inc., Arizona Superior Court, CV2013-055021; see also
Tom Horne, Arizona AG, Files Lawsuit Over Alleged
Defamatory Ads, UNITED PRESS INT’L, Nov. 21, 2013,
available at https://www.upi.com/Top_News/US/2013/
11/21/Tom-Horne-Arizona-AG-files-lawsuit-overalleged-defamatory-ads/17931385068937/?ur3=1.
It is difficult to envision a more paradigmatic
illustration of constitutionally protected advocacy than
PIA’s advertisements, or a more convincing testament
to the dangers of coerced disclosure than Horne’s
campaign of retribution. Yet it is doubtful that the
Ninth Circuit’s heavily diluted variant of “exacting
scrutiny” would have secured PIA’s exercise of its First
Amendment rights, had Arizona enacted a disclosure
2

The Secretary of State subsequently determined that PIA was not
a political committee and that there was no reason to believe PIA
had violated campaign finance laws.

10
mandate comparable to the California regulation here.
Like the Petitioner, PIA undoubtedly could have
averred that such a disclosure requirement would have
deterred one or more of its major contributors from
furnishing financial support. According to the Ninth
Circuit, however, such a showing is generally
insufficient to establish the requisite substantial First
Amendment burden. See Americans for Prosperity
Foundation, 903 F.3d at 1014.
More fundamentally, the Ninth Circuit’s myopic and
unduly constricted understanding of the “substantial
burden” concept exhibits a troubling disconnect from
practical reality. While PIA can confirm with certitude
that a compelled disclosure regime would cost it
donations, this injury often is not susceptible to a
linear causal narrative that links particular
contributions from specific individuals to the presence
or absence of a concrete disclosure requirement.
Rather, disclosure mandates exert a general and
pervasive chill across the advocacy landscape, and
preemptively thwart associational activities that
otherwise would have occurred. For example, many of
PIA’s donors—including some whose contributions
underwrote its 2013 advertisements criticizing
Horne—affirmatively approach the PIA with offers of
support, aware of the organization’s long track record
of fighting corruption and holding elected officials
accountable. Because a comparable disclosure mandate
in Arizona likely would have deterred these donors
from ever contacting PIA in the first place, it would
have been effectively impossible for PIA to identify and
quantify this loss to a court if it had wished to
challenge such a hypothetical requirement in 2013.

11
Similarly, while Horne’s response to PIA’s
advertisements unmistakably smacked of retaliation
and harassment, it would have been difficult for PIA to
prove ex ante that compelled disclosure of its finances
would place its donors at risk of retribution by a
vindictive Attorney General. In short, by demanding an
implausibly rigorous evidentiary showing of a
“substantial burden” on First Amendment activities,
the Ninth Circuit not only deviated from the
framework formulated in NAACP, but failed to heed
the intrinsic chill of First Amendment activities
embedded in every demand by the government for
private associational information.
B. Upon a Showing of an Arguable First
Amendment Infringement, the Government
Must Establish that Coerced Disclosure Is
the Least Restrictive Means of Advancing
a Compelling Interest
The Ninth Circuit’s eschewal of a “narrowly
tailored” criterion from its putative “exacting scrutiny”
analysis not only departs from this Court’s precedents
but also the Ninth Circuit’s own articulation of the
exacting scrutiny standard in similar contexts. Joining
other courts nationwide, the Ninth Circuit has forged
an evidentiary “First Amendment privilege” that
curtails compelled discovery—whether by a
governmental entity or a private party—into an
organization’s sensitive internal associational
information. See Perry v. Schwarzenegger, 591 F.3d
1147 (9th Cir. 2010). Under this rubric, a party
invoking the privilege “must demonstrate . . . a ‘prima
facie showing of arguable first amendment

12
infringement,’” in the form of, for example, threats of
harassment, membership withdrawals, or similar
chilling effects. Id. at 1160 (internal citations omitted).
Upon such a showing, the burden shifts to the party
seeking discovery to establish that it is not only
“rationally related to a compelling governmental
interest” but also constitutes “the least restrictive
means of obtaining the desired information.” Id. at
1161 (internal citation omitted). In this vein, the
demand for disclosure “must . . . be carefully tailored to
avoid unnecessary interference with protected
activities, and the [requested] information must be
otherwise unavailable.” Id.
While it is not a perfect transposition of the NAACP
framework and carries a risk of undisciplined
application, this conception of exacting scrutiny at least
retains two key attributes missing from the Ninth
Circuit’s opinion in this case. First, it acknowledges the
practical reality that the chilling effects of compulsory
disclosure often elude simple quantification on an ex
ante basis; it hence is sufficient that a party seeking
the protections of the First Amendment delineate some
plausible and credible adverse impact—as the
Petitioner has done here. See id. at 1163 (finding that
declarations describing in general terms the
anticipated effects of compelled disclosure were
sufficient, explaining that “[a]lthough the evidence
presented . . . is lacking in particularity, it is consistent
with the self-evident conclusion that important First
Amendment interests are implicated by the plaintiffs’
discovery requests”); Democratic Nat’l Comm. v.
Arizona Sec’y of State’s Office, CV-16-01065-PHX-DLR,
2017 WL 3149914, at *2 (D. Ariz. July 25, 2017) (sworn

13
averment that ““[d]isclosure of [the requested]
communication [by political party] risks revealing the
viewpoints, political associations, and strategy of such
partners,’ and might chill such partners from
associating with the [the party] in the future”
constituted prima facie showing of First Amendment
infringement); Adolph Coors Co. v. Wallace, 570 F.
Supp. 202, 210 (N.D. Cal. 1983) (holding that “the
litigant seeking protection need not prove to a certainty
that its First Amendment rights will be chilled by
disclosure. It need only show that there is some
probability that disclosure will lead to reprisal or
harassment.” (internal citation omitted)); The Ohio
Org. Collaborative v. Husted, 2:15-CV-01802, 2015 WL
7008530, at *3 (S.D. Ohio Nov. 12, 2015) (holding that
political party satisfied threshold showing of potential
First Amendment infringement, even absent specific
evidence of harassment or retaliation risks, adding that
“the compelled disclosure of such sensitive [financial
and communications] information in the context of
highly charged litigation involving issues of great
political controversy would have a chilling effect on
plaintiffs’ freedom of association by adversely
impacting their ability to organize, promote their
message(s), and conduct their affairs.”).
Second, Perry and other First Amendment privilege
cases maintain fidelity to this Court’s requirement that
compelled disclosures must be not only premised on a
compelling government interest, but also the “least
restrictive means” of obtaining information that is
“highly relevant” to a specific legal claim or defense.
See Perry, 591 F.3d at 1161 (noting that, upon a prima
facie showing of potential First Amendment

14
infringement, party seeking disclosure must
demonstrate that the demand is “carefully tailored to
avoid unnecessary interference with protected
activities”); Montanans for Cmty. Dev. v. Motl, CV 1455-H-DLC, 2015 WL 13716091, at *3 (D. Mont. Aug. 7,
2015) (government’s discovery request for
organization’s “donor names and donation amounts,
bank account information, internal communications,
are not sufficiently tailored to protect” organization’s
First Amendment rights); cf. In re Slack, 768 F. Supp.
2d 189, 194–95 (D.D.C. 2011) (when confidential
information is demanded of a journalist, First
Amendment principles require the court to “consider
whether the party seeking the information has
exhausted all reasonably available alternative
sources”) (citing Zerilli v. Smith, 656 F.2d 705 (D.C.
Cir. 1981)).
As distilled in this context, exacting scrutiny thus
directs that the Respondent may compel disclosure of
the Petitioner’s internal associational information only
if he can establish that such information is highly
relevant to a specific underlying investigation or
inquiry, and that compulsory disclosure is the only
effective means of furthering this valid investigatory
objective. Indeed, if anything, the First Amendment
perils that inhere in the California regulation at issue
here—i.e., an indiscriminate demand by the
government for sensitive donor information from all
registered charities operating in the state, irrespective
of whether they are suspected of any wrongdoing—are
more acute than those presented in the typical First
Amendment privilege case, which generally features a
discrete demand by a private party for information that

15
has some articulable relevance to a live legal claim or
defense. Cf. McIntyre v. Ohio Elections Comm’n, 514
U.S. 334, 351(1995) (state’s “assuredly legitimate”
interests in preventing fraud could not justify
“extremely broad prohibition” on anonymous
leafletting, which applied even in contexts that did not
present a high risk of fraud). In devising a novel
formulation of “exacting scrutiny” that affords less
protection to organizations such as the Petitioner, the
Ninth Circuit has inverted a foundational premise of
this Court’s First Amendment jurisprudence.
II. A GENERAL “INFORMATIONAL INTEREST”
IS INSUFFICIENT TO SUSTAIN THE
COMPELLED DISCLOSURE OF PRIVATE
ASSOCIATIONAL INFORMATION
The PIA does not dispute that California’s stated
interest in “policing charitable fraud,” Americans for
Prosperity Found., 903 F.3d at 1004, is compelling.
Rather, as set forth in the Petition, the Ninth Circuit
improperly abdicated its responsibility to require a
narrowly tailored fit between this objective and the
regulatory means employed to advance it.
That said, however, this case adumbrates a deeper
error that has increasingly permeated the
jurisprudence of the lower federal courts—namely, that
a nebulous “informational interest” asserted by the
government can justify the compelled disclosure by
non-profit organizations of sensitive internal
information, including the identities of their donors.
Although the precise formulation varies somewhat
among jurisdictions, this concept is generally framed by
(1) appeals to the precedents of this Court, and

16
(2) conclusory and superficial assertions that coerced
disclosure is conducive to more efficacious voter
decision-making in candidate or ballot measure
elections. See, e.g., Yamada v. Snipes, 786 F.3d 1182,
1197 (9th Cir. 2015) (stating that “the reporting and
disclosure obligations provide information to the
electorate about who is speaking—information that ‘is
vital to the efficient functioning of the marketplace of
ideas, and thus to advancing the democratic objectives
underlying the First Amendment’” (internal citations
omitted)); Nat’l Org. for Marriage, Inc. v. McKee, 669
F.3d 34, 40 (1st Cir. 2012) (opining that “transparency
is a compelling objective” for the government); Ctr. for
Individual Freedom v. Madigan, 697 F.3d 464, 480
(7th Cir. 2012) (“Because the issues can be complex and
the public debate confusing, voters’ interest in knowing
the source of messages promoting or opposing ballot
measures is especially salient in such campaigns.”).
Both underpinnings of this argument are incorrect.
A. This Court Has Never Recognized a
Generalized “Informational Interest” That
Can Justify Compelled Disclosure of
Sensitive Associational Information
This Court’s precedents do not sustain the
amorphous “informational interest” devised by the
lower courts. Cautioning that “the invasion of privacy
of belief may be as great when the information sought
concerns the giving and spending of money as when it
concerns the joining of organizations, for ‘(f)inancial
transactions can reveal much about a person’s
activities, associations, and beliefs,’” Buckley v. Valeo,
424 U.S. 1, 66 (1976) (internal citation omitted), this

17
Court in Buckley identified three limited governmental
interests that can support limited disclosure mandates.
First, “disclosure requirements deter actual
corruption and avoid the appearance of corruption by
exposing large contributions and expenditures to the
light of publicity. . . . A public armed with information
about a candidate’s most generous supporters is better
able to detect any post-election special favors that may
be given in return.” Id. at 67. Second, and relatedly,
“disclosure requirements are an essential means of
gathering the data necessary to detect violations of the
contribution limitations.” Id. at 67-68.
Neither of these rationales, however, is germane to
the activities of organizations that operate
independently of candidates and their campaigns,
which generally are not subject to limits on the
amounts of contributions they can receive and the
sources whom they can solicit. See id. at 47 (“The
absence of prearrangement and coordination of an
expenditure with the candidate or his agent . . .
alleviates the danger that expenditures will be given as
a quid pro quo for improper commitments from the
candidate.”). Indeed, if anything, financial opacity
advances anti-corruption priorities; an elected
officeholder necessarily cannot corruptly enrich those
funding independent advocacy for his election if he does
not know who they are.
Third, the Buckley Court observed that “disclosure
provides the electorate with information ‘as to where
political campaign money comes from and how it is
spent by the candidate’ in order to aid the voters in
evaluating those who seek federal office,” id. at 66-67,

18
but this narrowly conceived “informational interest” is
tethered closely to the nature and functions of
candidate campaigns and political entities closely
aligned with them (e.g., political party committees).
Nothing in Buckley extends its rationale to entities,
such as nonprofits organized and operated pursuant to
26 U.S.C. § 501(c), that engage primarily in public
policy advocacy or issue education.
While some lower courts have fixated on this
Court’s comment that “the public has an interest in
knowing who is speaking about a candidate shortly
before an election,” Citizens United v. Fed. Election
Comm’n, 558 U.S. 310, 369 (2010), to justify their
embrace of an indiscriminate “informational interest,”
a closer examination of Citizens United belies that
contention. At issue were campaign finance laws that
required Citizens United to identify itself in a
disclaimer as the sponsor of public communications it
disseminated and to report basic factual information
about certain disbursements to the Federal Election
Commission. There is an integral distinction, however,
between mandates that a speaker simply identify itself
and its activities, and the coerced divulgence of
internal organizational information concerning
confidential relationships between an association and
its donors or members. See generally Davis v. Fed.
Election Comm’n, 554 U.S. 724, 744 (2008) (“[W]e have
repeatedly found that compelled disclosure, in itself,
can seriously infringe on privacy of association and
belief guaranteed by the First Amendment.” (quoting
Buckley, 424 U.S. at 64)).

19
B. The Generalized “Informational Interest”
Propounded by the Lower Courts Lacks
Factual Support and Persuasive Force
More fundamentally, the lower courts’ account of
the expansive “informational interest” they have
devised is empirically unsupported and logically
unsound. As enunciated by the Ninth Circuit (in the
context of ballot measure efforts), it consists of the idea
that
Knowing which interested parties back or
oppose a ballot measure is critical, especially
when one considers that ballot-measure
language is typically confusing, and the longterm policy ramifications of the ballot measure
are often unknown. At least by knowing who
backs or opposes a given initiative, voters will
have a pretty good idea of who stands to benefit
from the legislation.
California Pro-Life Council, Inc. v. Getman, 328 F.3d
1088, 1106 (9th Cir. 2003). At least three flaws,
however, afflict this reasoning.
First, the notion that compelled disclosure
qualitatively enhances electoral deliberation and
decision-making finds limited sustenance in the
political science literature. For example, one study
endeavored to determine whether voters with access to
campaign finance disclosures were better able to
identify the positions of key interest groups on a ballot
measure. The study found that mandated campaign
finance disclosures provided few marginal
informational benefits, explaining that voter cognition

20
already is heavily influenced by the manifold existing
channels of voluntarily provided information. See
David M. Primo, Information at the Margin: Campaign
Finance Disclosure Laws, Ballot Issues, and Voter
Knowledge, 12 ELECTION LAW JOURNAL 114 (2013).
Other studies are in accord. See, e.g., Dick M.
Carpenter II, Mandatory Disclosure for BallotInitiative Campaigns, 13 THE INDEPENDENT REVIEW
568 (2009) (concluding that its study results “question
the notion that mandatory disclosure produces more
informed voters. The vast majority of respondents have
no idea where to find lists of contributors and never
actively seek out such information before they vote.”);
David M. Primo & Jeffrey Milyo, Campaign Finance
Laws and Political Efficacy: Evidence from the States,
5 ELECTION LAW JOURNAL 23, 34 (2006) (finding only a
“modest” effect of public disclosure laws on certain
measures of political efficacy). Any marginal and
equivocal informational benefits that may redound
from mandated disclosure are further diluted by the
propensity of these laws to, in at least some
circumstances, deter political participation. See
Raymond J. La Raja, Political Participation and Civic
Courage: The Negative Effect of Transparency on
Making Small Campaign Contributions, 36 POLIT.
BEHAV. 753 (2014); Alexandre Couture Gagnon & Filip
Palda, The Price of Transparency: Do Campaign
Finance Disclosure Laws Discourage Political
Participation by Citizens Groups?, 146 PUBLIC CHOICE
353 (2011) (finding evidence that campaign finance
disclosure laws deterred electoral participation in
Canadian elections).

21
Second, the notion that “by knowing who backs or
opposes a given initiative, voters will have a pretty
good idea of who stands to benefit from the legislation,”
Getman, 328 F.3d at 1106, is highly dubious. The
objectives and motives underlying many donations to
non-profits such as PIA are manifold and diverse. Some
contributors seek to advance particular projects and
issues, while otherwise merely wish to support PIA’s
overall organizational mission writ large. In addition,
the content, timing and other attributes of PIA’s public
communications largely embody the independent
decisions and judgment of its officers and
consultants—not its donors. Thus, any person seeking
to draw a linear inference between PIA’s activities and
communications and the personal opinion of any given
PIA donor is as likely to end up misinformed as he is
edified.
Finally, even if it were factually true that voters can
and do glean accurate and material information from
mandated disclosures that in turn influence their
assessment of candidates or ballot measures or other
public advocacy, it is not self-evident that this
phenomenon is at all salutary to our political system.
In a republic that depends on a thoughtful and engaged
citizenry, the notion that important electoral decisions
should be propelled by the mere identities of a
politically active organization’s members and
donors—rather than a substantive evaluation of the
speaker’s arguments on their own merits—is troubling.
To the contrary, “[a]nonymity . . . provides a way for a
writer who may be personally unpopular to ensure that
readers will not prejudge her message simply because
they do not like its proponent. Thus, even in the field of

22
political rhetoric, where ‘the identity of the speaker is
an important component of many attempts to
persuade,’ the most effective advocates have sometimes
opted for anonymity.” McIntyre, 514 U.S. at 342–43
(internal citation omitted).
The point is not that there can never exist any
cognizable government interest in the disclosure of
information; rather, it is that before imbuing this
elastic concept with a constitutional significance that
can, at least in some circumstances, displace core First
Amendment rights, a rigorous showing of its empirical
veracity and conceptual validity is critical. Further,
whatever persuasive force an “informational interest”
carries in the campaign finance context dissipates
when, as here, disclosure mandates are extended to
organizations, such as the Petitioner, that do not
engage in any electoral advocacy whatsoever.
In sum, there undoubtedly is an articulable public
interest that can sustain certain discrete and limited
mandated disclosures, particularly with respect to
candidates and political parties. See Buckley, 424 U.S.
at 66. The perpetually expanding and increasingly
indeterminate “informational interest” accreting in the
lower courts, however, is symptomatic of a broader
distortion in First Amendment doctrine—underscored
by the Ninth Circuit’s judgment here—that risks
improperly subordinating vital expressive and
associational freedoms to government caprice. The
Petition in this case offers an apt opportunity to begin
correcting the course.

23
CONCLUSION
For the foregoing reasons, the amicus respectfully
requests that the Court grant the petition for a writ of
certiorari.
Respectfully submitted,
KORY A. LANGHOFER
Counsel of Record
THOMAS J. BASILE
STATECRAFT PLLC
649 North Fourth Avenue, First Floor
Phoenix, Arizona 85003
(602) 382-4078
kory@statecraftlaw.com
Counsel for Amicus Curiae

